               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE
                                               




           City Delivery Operations —
             Brick Main Post Office

         Management Advisory Report




                                         September 27, 2012

Report Number DR-MA-12-004
                                                                   September 27, 2012

                                                          City Delivery Operations —
                                                               Brick Main Post Office

                                                       Report Number DR-MA-12-004



BACKGROUND:
Delivery operations has the highest         efficiency and reduce 7,744 workhours
fixed cost in the U.S. Postal Service,      annually. Management did not always
making up more than 30 percent of the       reinforce Postal Service policies and
Postal Service operating expenses. City     procedures for supervising city delivery
carriers used more than 349.5 million       operations and ensure carriers used
total office and street workhours in        efficient office and street practices. Also,
fiscal year (FY) 2011. The Flats            management did not have automated
Sequencing System is a critical             vehicle tracking technology to assist in
component of the Postal Service’s           more effective street supervision.
strategy to contain costs through           Enhanced city delivery practices could
automation of the flat mail stream. Mail    result in annualized workhour cost
sorted in walk sequence order from this     savings of $333,764.
system usually results in earlier
departures by the carrier and reduced       WHAT THE OIG RECOMMENDED:
office time due to the reduced mail         We recommended the vice president,
volume the carrier needs to sort.           Eastern Area Operations, reduce
                                            workhours by 7,744 in FYs 2013 and
The Brick Main Post Office is in the        2014. We also recommended
South Jersey District, Eastern Area, and    management reinforce Postal Service
has 66 delivery routes. The delivery unit   policies and procedures for city delivery
expended about 182,960 total office and     street operations and promote effective
street workhours in FY 2011. In             office supervision where supervisor
response to a request from the vice         establish a consistent dialogue with
president, Eastern Area Operations, our     carriers to help build rapport and
objective was to assess the                 increase efficiency. Further, we
effectiveness of city delivery operations   recommended management pursue
at the Brick Main Post Office.              available vehicle tracking technologies
                                            to assist in monitoring delivery street
WHAT THE OIG FOUND:                         performance.
The Brick Main Post Office has
opportunities to enhance city letter        Link to review the entire report
September 27, 2012

MEMORANDUM FOR:             JORDAN M. SMALL
                            VICE PRESIDENT, EASTERN AREA OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report – City Delivery Operations –
                            Brick Main Post Office
                            (Report Number DR-MA-12-004)

This report presents the results of our review of City Delivery Operations at the Brick
Main Post Office (Project Number 12XG022DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Dean J. Granholm
    Elizabeth A. Schaefer
    Severo Garza
    Joshua D. Colin
    Corporate Audit and Response Management
City Delivery Operations —                                                                                         DR-MA-12-004
 Brick Main Post Office


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1 

Conclusion ...................................................................................................................... 1 

More Efficient City Delivery Operations ........................................................................... 2 

Supervising City Delivery Operations .............................................................................. 2 

More Efficient Carrier Office Practices ............................................................................ 3 

More Efficient Carrier Street Practices ............................................................................ 4 

Other Matters .................................................................................................................. 6 

Recommendations .......................................................................................................... 7 

Management’s Comments .............................................................................................. 7 

Evaluation of Management’s Comments ......................................................................... 8 

Appendix A: Additional Information ................................................................................. 9 

   Background ................................................................................................................. 9 

   Objective, Scope, and Methodology ............................................................................ 9 

   Prior Audit Coverage ................................................................................................. 10 

Appendix B: Monetary Impact ....................................................................................... 11 

Appendix C: Prior Audit Coverage ................................................................................ 13 

Appendix D: Management’s Comments ........................................................................ 17 
City Delivery Operations —                                                                             DR-MA-12-004
 Brick Main Post Office


Introduction

This report presents the results of our review of city delivery operations at the Brick
Main Post Office (Project Number 12XG022DR000). The report addresses operational
risk and is one of two reviews conducted by the U.S. Postal Service Office of Inspector
General (OIG) in response to a request from the vice president, Eastern Area
Operations. 1 Our objective was to assess the effectiveness of city delivery operations at
the Brick Main Post Office. See Appendix A for additional information about this review.

The U.S. Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in fiscal year (FY) 2011 declined by another 3 billion pieces to 168 billion,
dropping total mail volume to levels not seen since 1992. Since 2007, mail volume has
dropped by about 44 billion pieces. In contrast, delivery points have increased more
than 2.3 million since 2008. 2 The Postal Service must improve operational efficiency to
reduce costs while facing financial losses from declining mail volume. The Flats
Sequencing System (FSS) 3 is a critical component of the Postal Service cost
containment strategy through automation of the flat mail stream. FSS implementation
usually results in earlier departures by carriers and significantly reduced earned office
time.

The Brick Main Post Office is in the South Jersey District, has 66 delivery routes, and
has expended 182,960 total office and street workhours in FY 2011. In March 2011, the
Brick Main Post Office began receiving FSS mail.

Conclusion

The Brick Main Post Office could increase overall efficiency and reduce 7,744
workhours in FYs 2013 and 2014. The Brick Main Post Office also had the second
highest office and street workhour variance 4 in the South Jersey District despite
implementation of the FSS. Our review of office and street operations determined that
management did not always reinforce Postal Service policies and procedures for
supervising city delivery operations and ensure carriers use efficient office and street
practices. Also, we noted management did not have automated vehicle tracking
technology to assist in more effective street supervision. An increased focus on



1
  On April 23, 2012, the vice president, Eastern Area Operations, requested the OIG to review city delivery operations
at the Brick Main Post Office, Brick, NJ, and the Lancaster Carrier Annex, Lancaster, PA to determine why these two
offices were using more city delivery workhours after FSS implementation.
2
  City delivery is responsible for 1,097,020 of the 2,390,741 increased delivery points from FY 2007 through FY 2011.
3
  The FSS machines sort flat-sized mail such as large envelopes, newspapers, catalogs, circulars, and magazines
into delivery sequence at high speeds and at a much higher productivity rate than the manual process. FSS
processed mail will arrive at the delivery unit in walk sequence order, ready for delivery by the carrier with no
additional mail movement or manual sorting required.
4
  This is the difference between the office time it was projected to take for carriers to prepare the mail for delivery
compared to the actual amount of time carriers used in the office preparing mail for delivery. A positive variance
occurs when a carrier takes more time on a route than what is projected in the Delivery Operation Information System
(DOIS). A negative variance occurs when a carrier takes less time than projected in DOIS.
                                                             1
City Delivery Operations —                                                                                 DR-MA-12-004
 Brick Main Post Office


enhanced city delivery practices will result in reduced workhours and save $333,764
annually 5 (see Appendix B).

More Efficient City Delivery Operations

We determined the Brick Main Post Office could increase overall efficiency and reduce
7,744 workhours in FYs 2013 and 2014, 6 saving 23 minutes on each route per day. The
delivery unit also had the second highest office 7 and street 8 variances in the South
Jersey District, using 9,486 more office and 2,833 more street workhours than projected
for FY 2011 (see Table 1).

                           Table 1: Top 10 Delivery Units in Districts with
                                Highest Office and Street Variances

                                                    Office           Street            Total    District
             Station Names                         Variance         Variance          Variance Ranking
    Trenton Main Post Office                           7,886            4,479           12,365         1
    Brick Main Post Office                             9,486            2,833           12,319         2
    Toms River Main Post Office                        7,123            2,161             9,284        3
    Lakewood Main Post Office                          5,294            2,350             7,644        4
    Red Bank Main Post Office                          3,380            3,624             7,004        5
    Middletown NJ Main Post Office                     3,025            1,990             5,015        6
    Englishtown Main Post Office                       1,934            2,858             4,792        7
    Princeton Main Post Office                         2,934              913             3,847        8
    Freehold Main Post Office                          2,338            1,348             3,686        9
    Dover Main Post Office                             2,177            1,183             3,360       10
Source: OIG analysis based on Postal Service data from the Enterprise Data Warehouse (EDW).


Supervising City Delivery Operations

Although we observed supervisors at the Brick Main Post Office setting daily
performance expectations for carriers, some carriers reluctantly received them. We
observed several instances where supervisors engaged their carriers, but the carriers
expressed concerns to the supervisors about these instructions. If a carrier does not
meet performance standards, a supervisor must investigate and discuss performance
deficiencies with the carrier as well as good performance. 9 Although management has
begun engaging carriers, building a rapport within the unit will take time.


5
  The annualized savings was calculated by taking the FY 2013 and 2014 savings and dividing by two.
6
  The 7,744 annual workhour savings represent 464,640 minutes (7,744 hours multiplied by 60 minutes). Dividing the
more than 464,640 minutes by 66 routes in the Brick Main Post Office and then dividing by 303 annual days.
7
  Office time is time spent in the office casing mail for delivery. Casing or routing mail is the act of placing letter and
flat mail in the separations of carrier cases. It also refers to the process of placing flat mail in delivery sequence.
8
  Street time is time spent on routes to deliver mail to residences and businesses.
9
  Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 5-7.


                                                             2
 City Delivery Operations —                                                                                  DR-MA-12-004
  Brick Main Post Office


 Over the past several years, the delivery unit has experienced rotating supervisors with
 varying skill levels. This changing environment has made it difficult for carriers to know
 what is consistently expected of them and to maintain efficient delivery work habits.
 Management stated that they need strong and permanent supervisors in this unit. We
 noted that supervisory staff were new to the unit. Specifically, there was one newly
 promoted supervisor and two temporary supervisors. Management stated they would
 like to pursue additional full-time supervisory staff. An increased focus on obtaining
 permanent supervisors and effective supervisory practices would allow management to
 reduce office and street workhours and inefficient delivery practices.

 More Efficient Carrier Office Practices

 In addition to using more workhours than necessary, we also noted an increase in office
 variance time of 2,670 workhours from October through March of FYs 2011 and
 FY 2012, even though they implemented FSS (see Table 2).

                  Table 2: Analysis of Office Variance: Brick Main Post Office


    Fiscal
     Year              Oct.           Nov.               Dec.            Jan.           Feb.          March         Total
 2012                     858             722                867           683            628            886        4,644
 2011                 (291) 10          (171)              (118)           564            654          1,336         1,974
 Difference             1,149             893                985           119            (26)         (450)         2,670
Source: OIG Analysis using Postal Service Data from the EDW.

 The OIG also analyzed the route variances for office efficiency and found that 44 of the
 66 routes in FY 2011 and 41 of the 66 routes in FY 2012 accounted for 80 percent of
 the increase in office variance workhours.

 We observed opportunities for carriers to be more efficient and save office time while
 preparing mail for delivery. These opportunities include:

     Appropriate handling of FSS mail.
     Minimizing loud talking and wandering around the facility.
     Following established mail casing procedures.
     Minimizing time away from casing by combining trips to obtain mail.

 Handling Flats Sequencing System Mail

 Some carriers were unnecessarily casing 11 FSS mail. FSS mail has been presorted into
 delivery sequence in order of the line-of-travel on the route. FSS mail is not to be cased;
 however, as part of a memorandum of understanding between the Postal Service and

 10
   A negative office variance occurs when a route uses fewer office hours than projected.
 11
   Casing or routing mail is the act of placing letter and flat mail in the separations of carrier cases. Also refers to the
 process of placing flat mail in delivery sequence.


                                                              3
City Delivery Operations —                                                                                   DR-MA-12-004
 Brick Main Post Office


the National Association of Letter Carriers, carriers delivering to park-and-loop and foot
routes are allowed to collate FSS mail to ensure carriers only take three bundles. In
March 2011, the Brick Main Post Office began receiving FSS mail. The expected result
from FSS was a decline in office time. However, office workhour variance for the first
and second quarters of FY 2012 increased, in part, due to unnecessary handling of FSS
mail.

Talking and Wandering Around Facility

We observed some carriers talking loud to other carriers on the workroom floor away
from their cases as well as at their cases. We also observed some carriers talking
outside the unit and in the breakroom at non-designated break times. In addition, we
observed some carriers wandering around the unit going to and from their cases at
various times during the day without mail or mail equipment. Postal Service policy 12
states that carriers should be prompt in the performance of duties and should attend
quietly and diligently to work and refrain from loud talking.

Following Established Mail Casing Procedures

We observed some carriers holding mail in hand and hesitating and tapping mail on the
ledge before placing it in the proper separation in the case. Postal Service policy 13
states that carriers should not engage in any time-wasting practices before placing mail
in the proper separation.

Combining Trips Away From Case

We observed some carriers making several trips to and from their cases to obtain
parcels, withdrawals, and hot case mail. 14 Postal Service policy 15 states that carriers
should be prompt in performance of duties and diligent while at work.

More Efficient Carrier Street Practices

In addition to using more workhours than necessary, we also noted an increase in street
variance time of 7,737 hours from October through March of FYs 2011 and 2012, even
though they implemented FSS (see Table 3).




12
   Handbook M-41, Carriers Duties and Responsibilities, Section 112.25.
13
   Handbook M-41, Section 112.27.
14
   Hot case mail is a special distribution case in a delivery unit for last-minute sorting of Preferential Mail. The letter
carrier collects this mail before leaving the office for street duties.
15
   Handbook M-41, Section 112.25.


                                                              4
City Delivery Operations —                                                                  DR-MA-12-004
 Brick Main Post Office


         Table 3: Analysis of Delivery Street Variance: Brick Main Post Office

   Fiscal
    Year           Oct.         Nov.           Dec.          Jan.          Feb.       March    Total
2012               1,321         1,395           1,379        1,234         1,113      1,249    7,691
2011                 (50)        (85) 16       (1,102)          496           394        301      (46)
Difference         1,371         1,480           2,481          738           719        948   7,737
Source: OIG analysis using Postal Service data from EDW.

The OIG also analyzed the routes variances for street efficiency and found that 15 of
the 66 routes in FY 2011 and 32 of the 66 routes in FY 2012 accounted for 80 percent
of the increase in street variance.

We observed opportunities for carriers to be more efficient and save street time while
delivering mail. These opportunities include:

    More efficient loading of vehicles.
    More efficient mail delivery.

More Efficient Vehicle Loading

We observed opportunities for carriers to more efficiently load their vehicles before they
depart for the street. We observed some carriers unnecessarily making multiple trips to
retrieve mail between the delivery unit and their postal vehicles as well as talking and
visiting with other carriers before, during, and after the loading process. Postal Service
policy 17 states that carriers should take all mail for delivery to the vehicle at the same
time using a hamper and avoiding extra trips and proceed directly to their vehicles and
load the mail. Postal Service policy also states that managers must supervise loading
area activities to prevent delays in carriers departing for the street.

More Efficient Mail Delivery

We observed some carriers making multiple gestures 18 to place mail in customer boxes,
taking more than the established time for breaks and lunch, and talking with other
carriers while on their route. Postal Service policy 19 states that carriers should be
prompt in performance of duties and diligent while at work. Also, Postal Service policy 20
states that carriers should not loiter or stop to converse unnecessarily on route. We
observed some carriers spending more than 10 minutes talking with each other after
exchanging mail while on route (see Illustration 1).



16
   A negative street variance occurs when a route uses fewer street hours than projected.
17
   Handbook M-39, Management of Delivery Services, Sections 125.1 and 125.22, March 1998.
18
   Making more than one movement or attempt to place mail in the mailbox.
19
   Handbook M-41, Section 112.25.
20
   Handbook M-41, Section 112.28.


                                                      5
City Delivery Operations —                                                               DR-MA-12-004
 Brick Main Post Office


                 Illustration 1: Carrier Talking to Another Carrier on Street Time




            Source: OIG photo taken in June 2012.

Improved carrier supervision and more efficient carrier practices would increase the
Brick Main Post office’s overall efficiency and allow the Postal Service to reduce
7,744 workhours. We estimated this would result in savings of $333.764 annually,
(see Appendix B).

Other Matters

We noted during our review that the Brick Main Post Office does not have Global
Positioning System (GPS) 21 or other automated vehicle tracking technology available to
use on its delivery vehicles to assist supervisors in more effective street supervision.
Management stated that automated technology, like GPS, would be a helpful tool for
promptly identifying some types of inefficient street practices.




21
     An electronic system that uses satellites to determine the position of a vehicle.




                                                              6
City Delivery Operations —                                                                                  DR-MA-12-004
 Brick Main Post Office


Recommendations

We recommend the vice president, Eastern Area Operations:

1. Reduce 7,744 office and street workhours in fiscal years 2013 and 2014 to achieve
   an annual economic impact of $333,764.

2. Ensure management reinforces Postal Service policies and procedures for city
   delivery street operations to help eliminate carrier inefficient practices and avoid
   unnecessary labor costs.
          
3. Promote effective office supervision by increasing focus on obtaining permanent
   supervisors and reinforcing that supervisors establish a consistent dialogue with
   carriers to help build a rapport within the delivery unit and increase delivery
   efficiency.
          
4. Pursue available technologies to assist in monitoring carrier performance during
   street delivery.

Management’s Comments

Management agreed, or agreed in principle, with the findings, recommendations, and
monetary impact.

Management agreed in principle with recommendation 1 and the associated findings
and monetary impact. Management stated there are significant savings in both office
and street workhours. However, management also stated more recent data has shown
a positive trend in both office and street workhour reductions. Therefore, they anticipate
savings of 7,138 hours in both FY 2013 and FY 2014. Management stated that the
monetary impact should be revised based on recent available data to $620,716 with an
estimated completion date of September 30, 2014.

Management agreed with recommendation 2 to enforce policy and procedures and
eliminate costly inefficient practices. Management performed route inspections and
implemented route adjustments on September 8, 2012; enhanced senior management
oversight and supervisory presence in the office and on the street; and conducted a
Delivery Symposium to train management on more aggressive street presence. Further,
management will increase Managed Service Point (MSP) 22 scans to 15 on each route
and update pivot plans 23 to enhance efficiency. The estimated completion date is
October 27, 2012.



22
   A tool designed to monitor consistency of delivery time and enhance street management through the use of the
MDCD (Mobile Data Collection Device).
23
   A Pivot Plan gives delivery unit supervisors the ability to provide street auxiliary assistance to a route or cover a
vacancy on the street by pivoting (transferring) a portion of a route’s street deliveries to one or more carriers for that
day.


                                                             7
City Delivery Operations —                                                DR-MA-12-004
 Brick Main Post Office


Management agreed with recommendation 3 to promote effective office supervision by
communicating more effectively with carriers. Management stated there is a regular
supervisory presence and daily interaction with employees to set office and street
expectations, observe time-wasting practices, and ensure appropriate handling of FSS
mail. In addition, clerk schedules are being reviewed to ensure they align with
transportation and the Mail Arrival Profile (MAP) is being revised. The estimated
completion date is October 27, 2012.

Management agreed with recommendation 4 to pursue available technologies to assist
in monitoring carrier performance. Management is moving 12 vehicles that currently
have GPS to the unit and will provide training to all supervisors on monitoring GPS
activity and carrier performance. The estimated completion is October 27, 2012. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1, 2, and 4 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                          8
City Delivery Operations —                                                    DR-MA-12-004
 Brick Main Post Office


                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. While the mail volume continues to decline, the number of
delivery points continues to increase by about 700,000 annually. The Postal Service
must improve operational efficiency to reduce costs while facing financial losses from
declining mail volume.

Despite a high degree of automation, mail delivery remains labor intensive. Labor costs
comprise nearly 80 percent of the Postal Service's costs. Delivery operations have the
highest fixed cost in the system, making up more than 30 percent of the Postal Service's
operating expenses. The delivery carrier’s functions consisting of office and street
operations used 349,564,154 total workhours 24 in FY 2011.

To offset labor and costs during FY 2011, the Postal Service adjusted routes, used
growth management programs and route optimization tools, and took advantage of
continuous improvement programs to keep cost growth to a minimum. For example, the
Postal Service increased the percentage of flat mail sorted in delivery point sequence
using FSS, which is a critical component of postal strategy to contain costs through the
automation of the flat mailstream. Implementation of FSS usually results in significant
changes in carrier office time because of the reduction in cased residual volume
workload.

The Brick Main Post Office is in the South Jersey District and has 66 delivery routes and
expended about 182,960 total office and street workhours in FY 2011. In March 2011
the Brick Main Post Office began receiving FSS mail.

Objective, Scope, and Methodology

Our objective was to assess the effectiveness of city delivery operations at the Brick
Main Post Office. To accomplish our objective, we:

     Reviewed office and street operations, discussed operations with management, and
      assessed potential opportunities for reducing workhours.

     Reviewed and analyzed delivery unit data from EDW, DOIS, and the MSP.
           
     Reviewed FYs 2011 and 2012 DOIS data to evaluate office performance and
      judgmentally selected a sample of nine routes with highest variance to observe
      street performance and determine causes for overage.


24
     DOIS workhours queried from EDW.


                                                9
City Delivery Operations —                                                     DR-MA-12-004
 Brick Main Post Office


   Reviewed FSS mail handling policy and observed carrier FSS mail handling
    procedures.
         
   Discussed procedures for office and street operations with management and
    included their comments, where appropriate.

   Reviewed documentation and applicable policies and procedures for city delivery
    and Postal Service Handbooks M-39, Management of Delivery Services and M-41,
    Carriers Duties and Responsibilities.

We conducted this review from April through September 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 28, 2012, and included their comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed limited data integrity review
of the EDW data by confirming the results with Postal Service officials. We determined
that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG has issued nine reports related to the objectives of this review within the last
3 years. See Appendix C additional information about the prior audits.




                                            10
City Delivery Operations —                                                                                DR-MA-12-004
 Brick Main Post Office



                                       Appendix B: Monetary Impact

          Recommendation                            Impact Category                             Amount
                                                                                25
                      1                      Funds Put to Better Use                           $667,528
                                                                           26
                      2                           Questioned Costs                             $560,592
                   Total                           Monetary Impact                            $1,228,120
      Source: OIG analysis.

Funds Put to Better Use Methodology

We calculated funds put to better use for reducing city carrier workhours using the Brick
Main Post Office city carrier overtime rate of $42.72 for FY 2013, with an escalation
factor of 1.8 percent for the 2-year projection totaling $667,528.

The 7,744 annual workhour savings represent 464,640 minutes (7,744 hours multiplied
by 60 minutes). Dividing the more than 464,640 minutes by 66 routes in the Brick Main
Post Office and then dividing by 303 annual days equals about
23-minute reduction savings per route per day.

Questioned Cost Methodology

Our estimate of $560,592 questioned costs included questioned costs of $229,821 for
FY 2011 and $330,771 for the first three quarters of FY 2012. Our calculation was
based on the reduction of 5,669 27 hours at an annual cost savings of $229,821 for FY
2011 and a reduction of 7,883 hours at a cost of $330,771 for the first three quarters of
FY 2012.

    Office Questioned Costs: For FY 2011, we determined the number of routes that
     represented 80 percent of the office variance workhours which was 44 routes
     totaling 7,606 hours. Also, we calculated the average office variance of the
     remaining 22 routes, which resulted in 90 hours (1,972.74 hours divided by 22
     routes equals 89.67 hours, 90 rounded up). We then subtracted the 90 average
     office variance hours for each of the 44 high variance routes. This resulted in 3,646
     hours, which was then multiplied by the hourly rate of $40.54 for a total of $147,809
     questioned costs.

    For FY 2012, we determined 41 routes represented 80 percent of the office variance
     workhours, totaling 3,894 hours. We calculated the average office variance of the


25
   Funds that could be used more efficiently by implementing recommended actions.
26
   A questioned cost is categorized as unnecessary, unreasonable, unsupported or an alleged violation of law,
regulation or contract.
27
   Excess street hours (2,023) and office hours (3,646) multiplied by delivery unit city carrier labor overtime rate of
$40.54 for FY 2011. Excess office hours (2,254) and excess street hours (5,629) multiplied by the delivery unit city
carrier overtime rate of $41.96 for FY 2012.


                                                           11
City Delivery Operations —                                                                 DR-MA-12-004
 Brick Main Post Office


     remaining 25 routes, which resulted in 40 28 hours. We then subtracted the 40
     average office variance hours from each of the 41 high variance routes. This
     resulted in 2,254 hours, which was then multiplied by the city carrier hourly rate of
     $41.96 for a total of $94,578 questioned costs.

    Street Questioned Costs: For FY 2011, we identified the 15 routes with the highest
     street variance, which accounted for 2,188 hours of the district’s total street variance
     in FY 2011. Also, we calculated the average street variance of the remaining 51
     routes, which resulted in 11 29 hours. We then subtracted the 11 average street
     variance hours from each of the 15 high variance routes. This resulted in 2,023
     hours, which was then multiplied by the hourly rate of $40.54 for a total of $82,012
     questioned costs.

    For FY 2012, we determined 32 routes represented 80 percent of the street variance
     workhours totaling 7,581 hours of the district’s total street variance. Also, we
     calculated the average street variance of the remaining 34 routes, which resulted in
     61 30 hours. We then subtracted the 61 average street variance hours from the hours
     for each of the 34 routes. This resulted in 5,629 hours above the projected street
     hours, which we multiplied by the hourly rate of $41.96 for a total of $236,193
     questioned costs.
         
We calculated total cost savings for office and street of $229,821 in FY 2011 and
$330,771 for the first three quarters of FY 2012, resulting in a total of $560,592 in
questioned costs for those 2 years.




28
   We divided 1,002.79 hours by 25 routes, which equals 40.11, or 40 hours rounded down.
29
   We divided 580.12 hours by 51 routes, which equals 11.237, or 11 hours rounded down.
30
   We divided 2,059.70 hours by 34 routes, which equals 60.58, or 61 hours rounded up.




                                                       12
City Delivery Operations —                                                       DR-MA-12-004
 Brick Main Post Office


                             Appendix C: Prior Audit Coverage



                                          Final
                        Report           Report
 Report Title           Number            Date                  Monetary Impact
 City Street         DR-AR-12-001       6/5/2012                  $6,840,240
 Delivery
 Efficiency –
 San Diego
 District
 Report             The audit concluded that the San Diego District could increase overall
 Results            efficiency and reduce approximately 83,943 workhours by adjusting
                    its operations and improving supervision during carrier street delivery.
                    Management agreed with the findings, recommendations, and
                    monetary impact.
 National            DR-MA-11-002       7/19/2011                 $88,192,138
 Assessment
 of City
 Delivery
 Efficiency
 2011 – Office
 Performance
 Report             We determined that 21 districts operated at a percent to standard
 Results            above the national average (mean) of 104.37 for the period January 1
                    through December 31, 2010. In other words, these districts used more
                    minutes per route than the average carrier route in the nation. If the
                    Postal Service’s least productive districts were brought up to the
                    average productivity level, they could save more than $88 million in 1
                    year. Management agreed with the findings and two of three
                    recommendations. Management disagreed with the data source for
                    our workhour savings.
 City Delivery      DR-AR-11-004        3/30/2011                  $65,362,706
 Efficiency –
 Chicago
 District
 Report             The Chicago District has opportunities for enhanced delivery
 Results            efficiency and reduced workhour costs. Our benchmarking
                    comparison determined the Chicago District’s percent to standard
                    measurement was 120.04 or 14.9 percentage points above the
                    national average of 105.14. In other words, the Chicago District used
                    approximately 16 minutes more per carrier route than the average
                    carrier route in the nation. Management agreed with the findings,
                    recommendations, and monetary impact.



                                              13
City Delivery Operations —                                                      DR-MA-12-004
 Brick Main Post Office


 Report Title           Report           Final                 Monetary Impact
                        Number          Report
                                          Date
 City Delivery      DR-AR-11-003       1/20/2011                  $32,171,718
 Efficiency –
 Northern
 Virginia
 District
 Report             The Northern Virginia District was not operating at peak efficiency and
 Results            could reduce city delivery operating costs. Our benchmarking
                    comparison determined the Northern Virginia District percent to
                    standard measurement was 123.24, or 17 percentage points above
                    the national average of 105.05 percent. In other words, the district
                    used approximately 16 minutes more than the average carrier route in
                    the nation. Management agreed with the findings, recommendations,
                    and monetary impact.
 City Delivery      DR-AR-11-002       1/18/2011                  $93,143,986
 Efficiency
 Review –
 New York
 District
 Report             The New York District has opportunities for enhanced efficiency and
 Results            reduced workhours. Our benchmarking comparison determined the
                    New York District’s percent to standard measurement was 127.05, or
                    21.1 percentage points above the national average of 105.95 percent.
                    In other words, the district used approximately 37 minutes more than
                    the average carrier route in the nation. However, because of unique
                    delivery issues specific to the New York District, we used 25 minutes
                    per carrier route. Management agreed with the findings,
                    recommendations, and monetary impact.
 City Delivery      DR-AR-10-009        9/24/2010                  $27,374,309
 Efficiency
 Review –
 Atlanta
 District
 Report             The Atlanta District was not operating at peak efficiency and could
 Results            reduce city delivery operating costs. Although numerous factors were
                    involved, our review of 22 randomly selected delivery units confirmed
                    these inefficiencies and determined that district management did not
                    always (1) provide sufficient review and oversight of unit offices’
                    operating efficiencies and (2) coordinate with the mail processing
                    facility to ensure mail was timely received and in a condition that
                    promoted office operating efficiency. Eliminating time-wasting
                    practices and increasing the focus on efficiency could allow



                                              14
City Delivery Operations —                                                        DR-MA-12-004
 Brick Main Post Office


                    management to reduce workhours. Management agreed with the
                    findings, recommendations, and monetary impact.
 Report Title            Report         Final               Monetary Impact
                        Number         Report
                                         Date
 City Delivery      DR-AR-10-007      8/26/2010               $79,016,988
 Efficiency
 Review –
 Bay-Valley
 District
 Report             The Bay-Valley District was not operating at peak efficiency and could
 Results            save workhours and reduce city delivery operating costs. Although
                    numerous factors were involved, our review of 22 randomly selected
                    delivery units determined that district management did not always
                    (1) provide sufficient review and oversight of unit offices’ operating
                    efficiencies and (2) coordinate with mail processing facilities to ensure
                    mail was timely received and in a condition that promoted office
                    operating efficiency. Elimination of time-wasting practices and an
                    increased focus on efficiency could allow management to reduce
                    workhours. Management agreed with the findings, recommendations,
                    and monetary impact.
 City Delivery      DR-AR-10-006         7/1/2010                  $105,000,000
 Efficiency
 Review –
 Los Angeles
 District
 Report             The Los Angeles District was not operating at peak efficiency and
 Results            could save workhours and reduce city delivery operating costs.
                    Although numerous factors were involved, our review of 25 randomly
                    selected delivery units confirmed these inefficiencies and determined
                    that district management did not (1) provide sufficient review and
                    oversight of unit offices’ operating efficiencies and (2) coordinate with
                    the mail processing facility to ensure mail was timely received and in
                    a condition that promoted office operating efficiency. Elimination of
                    time-wasting practices and increased focus on efficiency could allow
                    management to reduce workhours. Management agreed with the
                    findings, recommendations, and monetary impact.




                                               15
City Delivery Operations —                                                    DR-MA-12-004
 Brick Main Post Office




 Report Title           Report           Final               Monetary Impact
                        Number          Report
                                         Date
 City Delivery      DR-AR-10-002      12/18/2009                $21,308,433
 Efficiency
 Review
 – San
 Francisco
 Napoleon
 Street
 Station
 Report             The audit concluded that the Napoleon Street Station was not
 Results            operating at peak efficiency and management could reduce city
                    delivery costs. Our benchmarking comparison of five similar delivery
                    units showed this station used 54,975 workhours more than
                    necessary. We also found that management did not adjust workhours
                    to match changes in workload. Management agreed with our findings
                    and recommendations to correct the issues identified.




                                             16
City Delivery Operations —                                       DR-MA-12-004
 Brick Main Post Office


                             Appendix D: Management’s Comments




                                            17
City Delivery Operations —        DR-MA-12-004
 Brick Main Post Office




                             18
City Delivery Operations —        DR-MA-12-004
 Brick Main Post Office




                             19
City Delivery Operations —        DR-MA-12-004
 Brick Main Post Office




                             20
City Delivery Operations —        DR-MA-12-004
 Brick Main Post Office




                             21
